RELEASE OF COLLATERAL BY THE DISASTER LOAN SERVICING 

                     CENTERS 


                    Report Number: 11-15 

                  Date Issued: June 3, 2011 





                       Prepared by the 

                 Office of Inspector General 

             U.S. Small Business Administration 

              u.s. Small Business Administration
              Office Inspector General                                  Memorandum
To:          John A. Miller                                             Date:   June 3, 2011
             Director, Office of Financial Program Operations
             /s/ Original Signed
From:         Peter L. McClintock
             Deputy Inspector General

Subject: 	   Report on the Release of Collateral for the Disaster Loan Servicing
             Centers, Report No. 11-15


             This report summarizes our audit of the Small Business Administration's (SBA) Release of
             Collateral by the Disaster Loan Servicing Centers. The audit objective was to determine whether
             the servicing centers were appropriately and timely releasing collateral on disaster loans.

             To evaluate the appropriateness of collateral releases, we reviewed a statistical sample of 120
             collateral release decisions made on active loans by the Birmingham and EI Paso disaster loan
             servicing centers during the period September 1,2007 to May 31,2010. We separately
             evaluated the timeliness of collateral releases at both servicing centers using a statistical sample
             of 30 collateral release decisions for loans that were paid in full.

             To test whether the servicing centers appropriately released collateral, we interviewed the staff
             responsible for performing collateral releases to gain an understanding of the process and the
             rationale behind specific release decisions. We reviewed loan documentation from each
             servicing center and performed our own analysis of each collateral release decision in our
             sample. We reviewed Disaster Credit Management System (DCMS) and Centralized Loan
             Chronology System (CLCS) entries for each collateral release decision. In addition, we
             reviewed each state's legal requirements to determine whether collateral releases were timely
             and compared the actual collateral release time to that required by the state law. Our audit scope
             and methodology is further defined in Appendix I and our sampling methodology is detailed in
             Appendix II.

             We conducted the audit between June 2010 and March 2011 in accordance with Government
             Auditing Standards prescribed by the Comptroller General of the United States.

             Results in Brief

             We found that both servicing centers did not consistently make appropriate decisions to release
             collateral on active loans. Based on a review of a statistical sample of collateral releases, we
             determined that 55 of 120, or approximately 46 percent of the collateral release decisions made
by the servicing centers, for collective property values of at least $3.1 million 1, were
inappropriate. As a result, the remaining collateral for some loans was not sufficient to protect
the Agency's interests because the loan balance exceeded the value of the property.

The inappropriate collateral release decisions occurred because the Agency did not perform a full
collateral analysis. A full analysis would have included obtaining an appraisal or other
acceptable property valuation, and evaluating whether the retained collateral value was sufficient
in relation to the outstanding loan balance. As a result of these inappropriate collateral releases,
we project that at least $3.9 million of loan balances could be insufficiently protected, exposing
the Agency to a higher risk of loss.

To effectively resolve these deficiencies, the servicing centers should consistently perform a full
collateral analysis, in compliance with the Standard Operating Procedures, to ensure that the
value of collateral retained is adequate to protect the loan balance. Further, servicing center
personnel responsible for processing collateral releases should receive additional training to
increase their proficiency.

For the second part of the audit objective, we determined that the collateral release for paid-in­
full loans was not always timely; however, the impact to the Agency was not significant. We
evaluated timeliness by reviewing a sample of 24 collateral releases. State laws dictate the
required timeframe for releasing collateral upon loan payoff. We concluded that 10 of24, or 42
percent, of the collateral releases were not processed within the time period specified by the state
law in which the released collateral property was located. Therefore, we recommend that the
Agency ensure that collateral is released within the time period specified by the applicable state
law.

The audit also disclosed five other matters which merit attention. For some collateral releases,
the SBA did not receive the net proceeds from the sale of damaged properties, proceeds from
these sales were not always applied to the correct loan, some damaged properties were sold for
less than fair market value, justifications for some collateral releases were misleading, and
insurance coverage on the remaining collateral was not always verified as required.

In summary, we made six recommendations to improve the collateral release process. During
the audit the servicing centers advised us that they had begun implementing procedures to correct
some of the deficiencies identified. Overall, management agreed with our findings and
concurred with our recommendations.

Background

The Office of Management and Budget's (OMB) Circular Number A-129, Policies for Federal
Credit Programs and Non-Tax Receivables, states the Government can reduce its risk of default
and potential losses through well managed collateral requirements. It also states that when real
property serves as collateral for direct loans, Federal agencies should obtain appraisals of the real
property and use loan-to-value (LTV)2 ratios to ensure that borrowers assume an equity interest.

1   We were unable to obtain released property values for 27 of the 55 exceptions due to the time elapsed since the release.
2   Loan-to-value is defined as the ratio ofthe amount of a loan to the value of the property securing the loan.

                                                                 2

According to SBA regulations (13 CFR 123.11), borrowers must pledge available collateral to
the SBA to secure the loan whenever the approved loan amount exceeds $5,000 for economic
injury disaster loans, or exceeds $14,000 for disaster home loans or physical business loans.
Previously, the unsecured loan limit was $10,000 for home and physical business loans, but this
limit was raised to $14,000, effective for disasters declared after May 22,2008.

Loan collateral is released when the loan is paid in full. Additionally, collateral may be released
upon borrower request, although the loan has a remaining balance. The collateral for a disaster
home loan may include the damaged property, a relocation property, and other property owned
by the borrower. A borrower may request a full or partial release of the loan collateral, or may
request that different property be substituted for existing collateral.

Standard Operating Procedure (SOP) 50 52, Consumer Loan Servicing and Collection for
Disaster Home Loans, allows the servicing centers to release collateral before the loan is paid in
full "as long as what remains is sufficient to secure the loan." When the SBA receives a request
from the borrower to release collateral, the servicing center sends the borrower a form letter
requesting specific information required by the SOP. The borrower must provide appraisals (not
older than six months), or if not available, then "other forms of valuations, such as comparable
sales, market analysis or a property tax assessment." In addition, the SOP requires SBA to verify
flood and hazard insurance and ask for any repayment of over-disbursements, prior to releasing
collateral. The SOP also requires that when the damaged property is sold, net proceeds (after
payment of costs of sale and any existing prior liens) must be applied to the SBA disaster home
loan.

Business loan collateral may include multiple properties, as well as things such as machinery and
equipment, furniture and fixtures, and receivables. The requirements for releasing business
disaster loan collateral, provided by SOP 50 50, Loan Servicing, are similar to the home loan
requirements, with some exceptions. For example, real estate appraisals on business property are
required to be "recent," rather than being tied to a specific term of six months, as required for
home loans. Also, for business assets, either the net book value or an internal valuation is
acceptable for releasing collateral.

Loan servicing officials use the SBA Form 327, Modification or Administrative Action, to
document the release of collateral and "must provide a summary analysis of the SBA's collateral
position before and after the requested change." A Loan Servicing Assistant reviews the
documentation submitted by the borrower and prepares the SBA Form 327 to recommend
approval or denial of the release. The Form 327 is submitted to legal counsel for concurrence
and then to a supervisor or team leader for approval. Once an approval is granted, the documents
needed to release the lien are sent to the borrower, a title company, or the borrower's attorney to
be recorded, as needed.




                                                 3

Results

Servicing Center Collateral Release Decisions were not Always Appropriate

The servicing centers did not consistently make appropriate decisions to release collateral on
loans that were not paid in full. We determined that 55 of the 120, or approximately 46 percent,
of the sampled collateral release decisions made by the servicing centers were inappropriate. We
considered releases inappropriate if the summary analysis, necessary to determine if there was
sufficient remaining collateral to secure the loan after release, was not accurate or complete.
Specifically, in some instances, the servicing centers did not obtain an appraisal or other property
valuation, or correctly compute the value of remaining collateral. A current appraisal or
valuation, needed to perform the summary collateral analysis, was missing for all but two of the
inappropriate collateral releases.

According to the SOPs, a summary collateral analysis includes the following components: (1)
obtaining a valuation of the property, (2) adjusting the property value to account for liquidation
costs, (3) determining SBA's lien and equity position, and (4) obtaining an estimated closing
statement for actions involving the sale or refinance of collateral. The property valuation may be
an actual appraisal prepared by a licensed appraiser, or if an actual appraisal is not available, an
alternative such as a market analysis or tax assessment may be used. The appraisal, or valuation,
is essential to perform the collateral analysis. Without a current property valuation, it is difficult
to determine whether the Agency has sufficient collateral to secure the loan.

The table below summarizes the impact and causes of the inappropriate releases.



                                                                                  Value of          Loan Amount
  Number of              Impact of                                             Inappropriately         Due to
Inappropriate          Inappropriate                                              Released          Inappropriate
  Releases           Collateral Release                    riate Release          Collateral          Releases
     16            No Remaining Collateral           Improper Practice            Unknown             $132,432
                   No Remaining Collateral        Did Not Adhere to SOP            $682,000            $144,037
                    Insufficient Remaining
       8                                          Did Not Adhere to SOP            $798,216            $401,723
                           Collateral
                     Remainin
       20                                         Did Not Adhere to SOP           $1,583,962               $0
                     Position
                     Remaining Collateral
       10                                         Did Not Adhere to SOP            Unknown             Unknown
                      Position Unknowd



No Remaining Collateral

We determined that for 17 of 55 inappropriate collateral releases, all collateral was released
leaving the loans unsecured. Sixteen of these occurred due to the practice of routinely releasing


3 OIG was unable to determine the value of remaining collateral at the time of release due to the amount of time
elapsed.

                                                         4
collateral upon borrower request, if the loan balance was below the unsecured threshold.
These 16 inappropriate releases left loans with total balances of$132,432 completely unsecured.
In one case, the servicing center personnel advised the borrower to pay down the loan balance so
that collateral could be released. The borrower requested lien subordination, not a collateral
release, on a loan with a balance of $23, 170. The servicing center advised the borrower to pay
down the loan balance below the unsecured threshold in order to release the collateral, rather
than subordinate it. As a result of the borrower paying down the loan balance, the servicing
center released all of the loan collateral, leaving the loan unsecured. This practice conflicts with
the SOPs which state that collateral may not be released unless sufficient collateral is retained to
protect the loan balance. In another case, SBA's decision resulted in an unsecured loan balance
of $144,037 and occurred because servicing center personnel did not perform an accurate
collateral analysis.

Insufficient Remaining Collateral

For eight inappropriate releases, although some collateral was retained, what remained was not
sufficient to protect the loan balances totaling $401,723. This generally occurred because
servicing center personnel were unaware of the SOP requirements to obtain a property valuation,
or did not perform a complete and accurate summary collateral analysis prior to collateral
release.

Remaining Collateral Position Acceptable

For 20 inappropriate releases, based upon tax assessment valuations we obtained during the
audit, we determined that either there was sufficient collateral remaining to protect the loan, or
SBA's collateral position improved following the release. There were 15 releases in which there
was sufficient collateral remaining to protect the loan balance. For the other five releases, the
remaining collateral coverage was insufficient, however, SBA's equity position improved
following the release of collateral, because net proceeds from the collateral sale resulted in a
reduction of the loan balance. Guidelines in SOP 50 52 specify that the Agency should not
decline a servicing action if the action is in the best interest of the borrower and lack of collateral
is the sole reason for the decline, provided that the result of the action leaves SBA in a like
equity position. Although our analysis determined that these 20 collateral releases did not
expose the Agency to an increased risk of potential loss, the releases should not have been
performed without first analyzing the collateral coverage, in accordance with the SOPs.

Remaining Collateral Position Unknown

For ten of the inappropriate collateral release decisions, we were unable to determine whether
there was sufficient collateral in place to protect the loan balance after the collateral release was
approved. In these cases these, the SBA did not obtain a recent valuation before the collateral
was released. OIG was also unable to obtain a tax assessment valuation, primarily because of the
time elapsed since the release decision was made or due to the type of business asset involved.
Because the SBA did not obtain a valuation and did not perform a collateral analysis prior to the
release of collateral for these ten loans, there is a risk that the corresponding loan balances could
be insufficiently secured.


                                                   5

Projecting our sample results to the universe of2,706 collateral releases, there were at least 979
improper releases of loan collateral for properties with values of at least $33.7 million. As a
result, loan balances of $3.9 million could be insufficiently secured, exposing the Agency to a
higher risk of loss. In order to correct this deficiency, we recommend that the servicing centers
obtain appraisals or valuations and perform collateral position analyses, including applying the
pertinent liquidation discount factors, prior to releasing collateral.

As a result of this audit, the servicing centers began documenting the collateral position analysis
on the Form 327 and ceased automatically releasing all collateral on loans with balances below
the unsecured threshold.

Other Matters

This audit also disclosed five other matters which merit attention:

   • 	 Net Proceeds from Sale ofDamaged Property Not Received - For two inappropriate
       collateral release decisions, the servicing centers released collateral without receipt of all
       net proceeds from the sale. These releases did not comply with SOP 50 52, which
       requires that net proceeds be applied to the SBA disaster home loan when the damaged
       property is sold. The servicing centers permitted the borrowers to retain the sales
       proceeds, rather than remit them to SBA based upon their conclusion that doing so was
       "in the best interest of the borrower." Although the SOP permits the release of collateral
       when it is "in the best interest of the borrower," it also requires that the action leave the
       SBA in a like equity position. As a result of not adhering to Agency policy, the servicing
       centers released the collateral without collecting the net proceeds of$294,561 due upon
       sale.

   • 	 Sales Proceeds Misapplied to Companion Loans - For two of the five collateral releases
       that occurred after the properties were sold, the SBA credited the borrower's companion
       loan, not the loan for which the collateral was sold and released. This resulted in the
       application of $157,818 to incorrect loan balances. This also occurred because the
       servicing center believed it was acting "in the best interest of the borrower."

   • 	 Sales ofDamaged Properties for Less than Fair Market Value - In two instances,
       damaged properties were sold to related parties for less than fair market value. Although
       the SBA received the net proceeds due upon sale, the sales prices were significantly less
       than the fair market values of the properties based upon tax assessments we obtained.
       Additionally, the remaining collateral was not sufficient to protect the loan balance. For
       one of these collateral releases, the land value alone was $10,800. The property was sold
       for $1,000 to the borrower's family member; however, the Agency could have received
       an additional $9,800 from the sale to reduce the borrower's loan balance and improve the
       Agency's equity position in the remaining collateral. The Agency should not agree to
       release damaged property collateral when the property sales price is far below market
       value, unless the remaining collateral is adequate to secure the loan.



                                                 6

   • 	 Justification for Release was Sometimes Misleading - From the sample we reviewed, 22
       collateral release decisions were executed by the servicing centers based upon decisions
       made at the Processing and Disbursement Center during loan origination. In these
       instances, the Form 327 stated that remaining collateral was "sufficient," although no
       valuation was obtained and no analysis was performed. The Form 327 actions should
       accurately reflect the actions taken by the servicing center.

   • 	 Lack of Verification ofFlood and Hazard Insurance - During the audit, we noted that
       for 43 collateral releases, there was no evidence that the servicing center verified that the
       borrower had flood insurance prior to the release. There were an additional 50 releases
       for which there was no evidence that the servicing center verified that the borrower
       maintained hazard insurance.

Recommendations

We recommend that the Director of the Office of Financial Program Operations:

   1. 	 Provide official written notification to direct the Servicing Centers to discontinue the
        practice of automatically releasing collateral upon borrower request when the loan
        balance falls at or below the unsecured threshold.

   2. 	 Provide additional training to servicing center staff to increase proficiency in performing
        appropriate release of collateral.

   3. 	 Instruct the approving official to only approve collateral releases that comply with
        the SOP requirements.

   4. 	 Instruct the servicing centers to apply net proceeds from the sale of damaged properties to
        applicable SBA disaster loans.

   5. 	 Instruct servicing center personnel that when releasing collateral in order to execute a
        determination initiated by the Processing and Disbursement Center, they accurately
        report and document the decision.

   6. 	 Instruct servicing center personnel execute the release of collateral on paid-in-full loans
        in a timely manner as required by the specific state laws in which the property is located.




                                                 7

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE 


On May 9,2011, we provided the Office of Financial Program Operations (OFPO) with the draft
report for comment. On May 27,2011, OFPO submitted its formal response which is contained
in Appendix V. Management agreed with our findings and concurred with our
recommendations. A summary of management's comments and our response is as follows.

Recommendation 1

Management Comments

During the audit, OFPO immediately discontinued releasing collateral if the loan balance was at
or below the secured threshold and agreed to incorporate this guidance into SOP 50 52, which is
under revision.

OIG Response

Management's comments are responsive to the recommendation.

Recommendation 2

Management Comments

OFPO agrees that as part of an ongoing process improvement project, it will initiate a training
manual that will serve as a detailed reference source with a planned final draft deadline of
August 31, 2011.

OIG Response

Management's comments are responsive to the recommendation.

Recommendation 3

Management Comments

OFPO has taken action to improve the collateral analysis process and will re-affirm compliance
with the existing SOP 50 52 through a memorandum to be completed by June 30,2011.

OIG Response

Management's comments are responsive to the recommendation.




                                                8

Recommendation 4

Management Comments

OFPO concurred with this recommendation and will issue a memorandum by June 30,2011 to
staff reminding them that net proceeds are applied to the correct loan associated with the sale of
the damaged property.

OIG Response

Management's comments are responsive to the recommendation.

Recommendation 5

Management Comments

OFPO concurred with the recommendation and stated that it had taken action to improve upon
documentation for all transactions. OFPO issued a December 13, 2011 memorandum stating that
any transactions related to collateral should be captured in the comments section of the Disaster
Credit Management System (DCMS). OFPO has teamed with the Office of Disaster Assistance
to develop a "servicing" specific comments identifier in DCMS. Additionally, OFPO issued a
memorandum on April 22, 2011 reinforcing a thorough review of any SBA Form 327 actions
and a reminder to include all relevant analysis and supporting documentation in the loan file.

OIG Response

Management's comments are responsive to the recommendation.

Recommendation 6

Management Comments

OFPO concurred with this recommendation and will issue a memorandum by June 30,2011
reinforcing timely analysis and adherence of specific state laws regarding release of collateral for
paid in full loans.

OIG Response

Management's comments are responsive to the recommendation.


Actions Required

Please provide your management decision for each recommendation on the attached SBA Forms
1824, Recommendation Action Sheet, within 180 days from the date of this report. Your
decision should identify the specific action(s) taken or planned for the recommendation and the


                                                 9

target date(s) for completion. We appreciate the courtesy and cooperation of the Office of
Financial Program Operations during the audit. If you have any questions regarding this report,
please contact me at (202) 205-7203 or Craig Hickok, Director, Disaster Assistance Group, at
(817) 684-5341.




                                               10 

APPENDIX I. AUDIT SCOPE AND METHODOLOGY 


The audit objective was to determine whether the servicing centers were appropriately
and timely releasing collateral on disaster loans.

To satisfy this objective, we reviewed loan documentation from each servicing center
pertaining to the collateral release decisions and performed our own analysis of each
collateral release. We reviewed Disaster Credit Management System (DCMS) and
Centralized Loan Chronology System (CLCS) entries related to each collateral release
decision in our sample. We also interviewed staff from each servicing center to obtain an
understanding of the collateral release process and their rationale for specific release
decisions.

We obtained a population universe of2,706 collateral releases, including 2,039 releases
processed by the EI Paso servicing center, and 667 releases processed by the Birmingham
servicing center during the period September 1, 2007 to May, 31,2010. From this
population universe, we randomly selected a statistical sample of74 releases processed
by the EI Paso servicing center and 61 releases processed by the Birmingham servicing
center for review. Fourteen of the EI Paso sample collateral releases and one of the
Birmingham releases did not meet our selection criteria. These samples were not
considered because they fell outside our audit criteria. As a result, we reviewed 60
collateral releases processed by each of the two servicing centers.

We performed an independent collateral release evaluation for each of the 120 releases
in the sample and compared our decisions with those made by the servicing center.
We considered a collateral release to be inappropriate if the remaining collateral was not
sufficient to protect the loan balance. We also considered the release to be inappropriate
if no valuation of the property was obtained prior to release, or no summary analysis was
performed, regardless of whether the remaining value of the collateral was adequate to
secure the loan. Based upon our review, we concluded 35 EI Paso and 20 Birmingham
collateral releases were inappropriate, or a total of 55 releases were inappropriate.

We also tested the timeliness of collateral releases performed at each of the two servicing
centers by reviewing a sample of 15 collateral releases made at each of them. To
evaluate whether the releases were processed timely for the sample of30 releases, we
compared the actual processing time to the time period required by the state law in which
the released collateral property was located.




                                            11 

    APPENDIX II. SAMPLING METHODOLOGY AND PROJECTIONS 


The universe consisted of 2,706 collateral releases, of which 667 were performed by the
Birmingham servicing center and 2,039 were performed by the EI Paso servicing center
during the period September 1, 2007 to May 31,2010. A statistical services consultant
randomly selected a representative sample of collateral releases from each of the
servicing centers for review. Our intention was to review approximately 60 samples from
each of the servicing centers, however, we anticipated that some samples may not meet
our criteria; therefore, we requested extra samples for review. During the review, we
encountered 15 samples that did not meet our criteria. These samples were passed
without review. Ultimately, we reviewed 60 samples from each of the servicing centers.

In statistical sampling, the projected estimates in the population have a measurable
precision or sampling error. The precision is a measure of the expected difference
between the value found in the sample and the value of the same characteristics that
would have been found if a 100 percent review had been completed using the same
techniques. Sampling precision is indicated by ranges, or confidence intervals, that have
upper and lower limits and a certain confidence level. Calculating a 90 percent
confidence level means the chances are 9 out of 10 that if we reviewed all of the loans in
the total population, the resulting values would be between the lower and upper limits,
with the population point estimates being the most likely amounts.

We consulted a statistician to obtain projections for the estimated number of
inappropriate collateral releases and their total dollar value, based upon our audit results
of the review of sample of 135 collateral releases performed during September 1, 2007 to
May 31,2010. The statistician calculated the projections using Stata v.ll software at a
90 percent confidence level. 4 Projecting our sample results to the universe of2,706
collateral releases, we estimate that at least 979 collateral releases, totaling approximately
$33.7 million, performed between September 1, 2007 and May 31,2010, were
inappropriate. As a result, at least 979 loans with balances of at least $3.9 millions were
insufficiently collateralized, exposing the Agency to a higher risk of loss. The table
below provides a breakdown of the projected number of improper collateral releases in
the universe of releases based upon the audit results of the sample reviewed.

The table below contains a summary of the statistical projections for the sample of 120
collateral releases we reviewed.




1Stata v.ll is a standard, professional statistical software program. 

2The estimates reported in this paragraph are the lower bounds of symmetric confidence intervals at 90% 

confidence. 


                                                   12
APPENDIX II. SAMPLING METHODOLOGY AND PROJECTIONS


Table 1: Inappropriate Collateral Release Projections

                    Occurrence in    Population Point     90 percent        90 Percent
                    Sample of 12        Estimate          confidence     confidence Upper
                      Releases                           Lower Limit           limit
Number of
inappropriate            55               1183               979               1387
releases
Total Value of
Collateral
                     $3,064,178        $61,234,113       $33,715,375        $88752851
Inappropriately
Releases
Total Unsecured
and Under Secured     $678,192         $14,857,876        $3,940,803       $25,774,950
Loan Amounts



The audit was conducted between June 2010 and March 2011 in accordance with
Government Auditing Standards as prescribed by the Comptroller General of the United
States, and included such tests considered necessary to provide reasonable assurance of
detecting abuse or illegal acts.




                                           13 

APPENDIX III. EL PASO LOANS WITH INAPPROPRIATELY
RELEASED COLLATERAL




                                    Value of      Under
                                   Collateral   Secured    Unsecured
                      Loan    Inappropriately       Loan        Loan
          Sample    Number         Released      Balance     Balance
      1    ER- 1                     $73,200          $0          $0
      2    ER- 3                    Unknown           $0      $6,913
      3    ER- 4                    Unknown           $0      $9,317
      4    ER- 6                     $87,500          $0          $0
      5    ER-11                     $27,000          $0          $0
      6    ER-12                    $160,000     $16,820          $0
      7    ER-16                    Unknown           $0     $10,014
      8    ER-17                    Unknown     Unknown           $0
      9    ER-18                    Unknown           $0      $9,593
     10    ER-19                    Unknown           $0      $8,209
     11    ER-20                    Unknown           $0      $9,911
     12    ER-21                    Unknown           $0      $3,455
     13    ER-22                     $23,904          $0          $0
     14    ER-23                    $215,000     $14,305          $0
     15    ER-28                     $99,400          $0          $0
     16    ER-29                    Unknown           $0      $3,100
     17    ER-30 [FOIAEx.2]         Unknown     Unknown           $0
     18    ER-31                    Unknown     Unknown       $9,891
     19    ER-35                     $37,320          $0          $0
     20    ER-38                    Unknown           $0      $9,870
     21    ER-43                    Unknown           $0      $7,664
     22    ER-46                    $237,520          $0          $0
     23    ER-53                    Unknown           $0      $6,610
     24    ER-56                    $371,350          $0          $0
     25    ER-57                     $36,000     $14,106          $0
     26    ER-59                    Unknown           $0      $9,026
     27    ER-61                    $160,860     $83,610          $0
     28    ER-63                    Unknown           $0      $9,951
     29    ER-65                    $116,400          $0          $0
     30    ER-67                    Unknown           $0      $9,196
     31    ER-68                    Unknown     $186,525          $0
     32    ER-70                      $9,800          $0          $0
     33    ER-72                    Unknown           $0      $9,712
     34    ER-73                     $13,200          $0          $0
     35    ER-74                    Unknown     Unknown           $0
                    TOTALS        $1,668,454    $315,366    $132,432




                                    14 

APPENDIX IV. BIRMINGHAM LOANS WITH INAPPROPRIATELY
RELEASED COLLATERAL




                                      Value of      Under
                                     Collateral   Secured    Unsecured
                         Loan   Inappropriately       Loan        Loan
          Sample       Number        Released      Balance     Balance
      1    BR- 1                       $10,800      $9,800          $0
      2    BR- 3                      Unknown     Unknown           $0
      3    BR- 6                      Unknown     Unknown           $0
      4    BR- 7                      Unknown     Unknown           $0
      5    BR-18                       $25,000          $0          $0
      6    BR-19                      $129,837          $0          $0
      7    BR-23                       $98,900          $0          $0
      8    BR-24                      Unknown     Unknown           $0
      9    BR-25   [FOIAEx.2]         Unknown     Unknown           $0
     10    BR-29                       $25,875          $0          $0
     11    BR-30                        $7,756          $0          $0
     12    BR-36                       $14,100     $14,100          $0
     13    BR-40                      Unknown     Unknown           $0
     14    BR-44                      Unknown     Unknown           $0
     15    BR-47                      $682,000    $144,037          $0
     16    BR-51                       $43,720          $0          $0
     17    BR-52                       $21,600          $0          $0
     18    BR-53                       $23,480          $0          $0
     19    BR-58                      $201,456     $62,457          $0
     20    BR-61                      $111,200          $0          $0
                      TOTALS        $1,395,724    $230,394          $0




                                    15 

APPENDIX V. AGENCY RESPONSE 



                                 u.s. SMALL BUSINESS ADMINISTRATION
                                          WASHINGTON, D.C. 20416

                                           MEMORANDUM 

                                            May 27,2011 



To:        Peter L. McClintock
           Deputy Inspector General

From:      John A. Miller
           Director, Office of Financial Program Operations

Subject:   Response to Draft Report on the Release of Collateral by the Disaster Loan
           Servicing Centers, Project No. 10701


Thank you for the opportunity to review the draft report. We appreciate the role that the
Office ofInspector General (OIG) plays in assisting management in ensuring that these
programs are effectively managed. The OIG's primary issue in this audit was that SBA
did not consistently conduct collateral analysis or complete a full collateral analysis
before releasing the liens. Particularly, the OIG found situations where collateral was
released when there was no remaining or insufficient collateral to secure the loan, the
collateral position was unknown or unacceptable, and proper documentation was not
obtained in the loan file. The Office of Financial Program Operations (OFPO) is
confident that these concerns have been or are in the process of being addressed.

Following initial discussions with OIG on this audit, OFPO visited the EI Paso Disaster
Loan Servicing Center and the Birmingham Disaster Loan Servicing Center (collectively
DLSCs) during October and November 2010. During these visits, OFPO staff requested
briefings on the release of collateral process. At this time, OFPO was informed that
collateral was released if the loan balance was at or below the secured threshold. As a
result, OFPO informed staff that this is not an acceptable reason to release collateral and
must be discontinued immediately. Additionally, in February 2011, OFPO initiated a
process improvement project on the DLSCs. The process improvement effort includes
standardizing letter and form templates for all transactions. Through the process
improvement process, OFPO has initiated teams of SMEs to aid in the development of a
standard release of collateral process. Once the collateral process is finalized, then it will
be incorporated into the SOP 50 52 which is currently under revision.

The OIG also identified "other matters" discovered during the audit process. These
matters are that (1) Net proceeds from the sale of damaged property was not received, (2)
Sales proceeds misapplied to companion loans, (3) Sales of damaged properties for less
than fair market price, (4) Justification for release was sometimes misleading, and (5)
Lack of verification of flood and hazard insurance. OFPO takes these other matters very

                                             16 

APPENDIX V. AGENCY RESPONSE 


seriously. After review, OFPO believes that additional training and guidance is necessary
to inform staff of proper procedures. With the aforementioned DLSCs process
improvement project, OFPO also initiated a group of Subject Matter Experts (SMEs) to
develop a training manual that will serve as a job aid and desk reference. The training
manual will give detailed guidance on how to process and follow up on the administrative
actions. This manual will compliment the SOP 50 52 as it generally focuses on training
for new and existing employees on acceptable procedures to accomplish the action with
existing systems and tools. The concern about flood and hazard insurance verification is
currently being addressed with OCA management in collaboration with the OIG via
Audit 10-1 Monitoring of Insurance Covered for Disaster Loan Recipients.

Moving forward, OFPO strives to maintain close partnership with the OIG. Taking into
account the above narrative, OFPO is providing additional information in response to the
OIG recommendations as follows:

1.     Provide official written notification to direct the Servicing Centers to
discontinue the practice ofautomatically releasing collateral upon borrower request
when the loan balance falls at or below the unsecured threshold.

OFPO concurs with this recommendation. OFPO indicated to the DLSCs in late 2010
that no collateral may be released automatically because the loan balance falls at or below
the unsecured threshold. This guidance will also be incorporated into the SOP 50 52
when it enters agency clearance.


2.    Provide additional training to servicing center staffto increase proficiency in
performing appropriate release ofcollateral.

OFPO concurs with this recommendation. Through the process improvement project
referenced in the above narrative, OFPO will initiate a training manual that will serve as a
detailed reference on servicing transactions. The training manual will be completed in
final draft by August 31, 2011 and will enter any necessary concurrence processes at that
time. In the interim, OFPO will identify training opportunities and instruct center
management to re-affirm proper collateral release procedures.


3.     Instruct the approving official to only approve collateral releases that comply
with the SOP requirements.

OFPO concurs with this recommendation and has already taken action to improve
collateral analysis. OFPO will re-affirm compliance with the existing SOP 50 52 via
memorandum. The memorandum will be completed by June 30,2011 and a copy
forwarded to the OIG.


4.     Instruct the servicing centers to apply net proceeds from the sale of damaged


                                            17 

APPENDIX V. AGENCY RESPONSE

properties to applicable SBA disaster loans.

OFPO concurs with this recommendation and will issue a memorandum to staff
reminding them to take careful note that net proceeds are applied to the correct loan
associated with the sale of the damaged property. The memorandum will be completed
by June 30,2011 and a copy forwarded to the OIG.


5.     Instruct servicing center personnel that when releasing collateral in order to
execute a determination initiated by the Processing and Disbursement Center, they
accurately report and document the decision.

OFPO concurs with this recommendation and has already taken action to improve upon
documentation for all transactions. The release of collateral must be fully documented,
including a reference to the transaction form/letter number and date. OFPO issued an
email memorandum on December 13, 2010 that any transactions related to duplication of
benefits or real estate/collateral should be captured in the comments section of the
Disaster Credit Management System (DCMS). OFPO has teamed with the Office of
Disaster Assistance to develop a "servicing" specific comments identifier in DCMS. The
DCMS review board has approved the request but OFPO is waiting on confirmation of its
availability in the system. Currently, the DLSCs enter collateral changes under the
customer service identifier in DCMS. Additionally, OFPO issued a memorandum on
April 22, 2011 reinforcing a thorough review of any SBA Form 327 actions and a
reminder to include of all relevant analysis and supporting documentation in the loan file.

6.       Instruct servicing center personnel execute the release ofcollateral on paid-in­
full loans in a timely manner as required by the specific state laws in which the
property is located.
OFPO concurs with this recommendation and will issue a memorandum reinforcing
timely analysis and adherence of specific state laws regarding release of collateral for
paid in full loans. The memorandum will be completed by June 30,2011 and a copy
forwarded to the OIG. OFPO does acknowledge that due to the unpredictable disaster
environment, work may be impacted at DLSCs particularly under very aggressive state
deadlines. OFPO will work with the impacted centers during these situations to identify
 staff and budget needs in attempting to support the state-specific deadlines.

Again, thank you for the opportunity to review the draft report. Please let us know if you
need additional information or have any questions regarding our response.




                                            18 

